App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SANFORD A. MOHR;
TINA A. MOHR, Individually
and as Co-Trustees of their
October 15, 1996 unrecorded
Revocable Trust,

No. 20-15895
D.C. No. 1:16-cv00493-ACK-WRP
MEMORANDUM*

Plaintiffs-Appellants, (Filed Jul. 9, 2021)
v.
MLB, SUB I, LLC; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the District of Hawaii
Alan C. Kay, District Judge, Presiding
Submitted July 6, 2021**
Honolulu, Hawaii
Before: NGUYEN, OWENS, and FRIEDLAND, Circuit
Judges.
Sanford and Tina Mohr (“the Mohrs”) appeal from
the district court’s order granting summary judgment
and issuing a decree of foreclosure in favor of MLB,
SUB I, LLC (“MLB”). We review a grant of summary
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
judgment de novo. L.F. v. Lake Wash. Sch. Dist. #414,
947 F.3d 621, 625 (9th Cir. 2020). As the parties are
familiar with the facts, we do not recount them here.
We have jurisdiction under 28 U.S.C. § 1291, and we
affirm.
Under Hawaii law, a party seeking a foreclosure
decree must demonstrate (1) the existence of a promissory note, mortgage, or other debt agreement, (2) the
terms of such agreement, (3) default by the debtor under the terms of the agreement, and (4) that the debtor
was given sufficient notice of default. See Bank of Am.,
N.A. v. Reyes-Toledo, 390 P.3d 1248, 1254 (Haw. 2017)
(“Toledo I”). There is no genuine dispute that MLB has
established the four factors. The Lost Note Affidavit
and copy of the original promissory note—with the
Mohrs’ signatures or initials on nearly every page—
clearly prove the existence and terms of the debt agreement, and there is ample evidence that the Mohrs are
in default under the agreement’s terms. MLB also provided copies of the notices of default that were sent to
the Mohrs, satisfying the fourth requirement.
A foreclosing lender must also demonstrate it has
standing as someone “entitle[d] to enforce” the agreement. Id. The standing requirements are governed
by statute. See Haw. Rev. Stat. §§ 490:3-301, -309.1
1

Section 490:3-309, which governs the “[e]nforcement of lost
. . . instrument[s],” provides that:
A person not in possession of an instrument is entitled
to enforce the instrument if (i) the person was in rightful possession of the instrument and entitled to enforce
it when loss of possession occurred, (ii) the loss of

App. 3
Because the original promissory note is lost, we must
determine whether MLB is entitled under section
490:3-309 to enforce the debt agreement using the Lost
Note Affidavit, a copy of the original note, and an allonge affixed to the note containing a blank indorsement. We conclude that it is.
Given the lack of Hawaii cases interpreting section 490:3-309, we must “use [our] own best judgment
in predicting how the state’s highest court would decide the case.” Fast Trak Inv. Co. v. Sax, 962 F.3d 455,
465 (9th Cir. 2020) (order) (internal quotation marks
and citation omitted). We can “look[ ] to well-reasoned
decisions from other jurisdictions” as a guide.
Takahashi v. Loomis Armored Car Serv., 625 F.2d 314,
316 (9th Cir. 1980). Here, the district court relied on
In re Allen, 472 B.R. 559 (B.A.P. 9th Cir. 2012), which
interpreted a nearly identical Washington statute and
concluded that an assignee of a lost promissory note
can still enforce the note based on the lost note affidavit and blank indorsement, id. at 567.2 The Ninth
possession was not the result of a transfer by the person or a lawful seizure, and (iii) the person cannot reasonably obtain possession of the instrument because
the instrument was destroyed, its whereabouts cannot
be determined, or it is in the wrongful possession of an
unknown person or a person that cannot be found or is
not amenable to service of process.
Haw. Rev. Stat. § 490:3-309(a).
2
The Washington statute is nearly identical in language to
Hawaii’s section 490:3309:
A person not in possession of an instrument is entitled
to enforce the instrument if (i) the person was in possession of the instrument and entitled to enforce it

App. 4
Circuit Bankruptcy Appellate Panel reasoned that
the affidavit and blank indorsement were “sufficient to
replace the original [n]ote” because the blank indorsement makes the note a “bearer instrument . . . negotiable by transfer of possession alone.” Id. In light of Allen,
the district court similarly concluded that the Lost
Note Affidavit in this case became the “substitute” for
the note, and that MLB’s continuous possession of the
affidavit and the allonge containing the blank indorsement thus gave it the right to enforce the lost note.
We see no error in the district court’s conclusion or
reliance on Allen. The Hawaii and Washington statutory provisions are nearly identical; the question presented is meaningfully similar; and, to the extent that
the Hawaii Supreme Court may be concerned about
“widespread documentation problems” in the mortgage
industry, Toledo I, 390 P.3d at 1256, there are already
statutory protections in place to prevent multiple parties from enforcing the same lost note, see § 490:3309(b). Furthermore, at least in this case, the district
court noted that “the foreclosure would be conditioned
on MLB’s agreement to indemnify the Mohrs in the

when loss of possession occurred, (ii) the loss of possession was not the result of a transfer by the person or a
lawful seizure, and (iii) the person cannot reasonably
obtain possession of the instrument because the instrument was destroyed, its whereabouts cannot be determined, or it is in the wrongful possession of an
unknown person or a person that cannot be found or is
not amenable to service of process.
Wash. Rev. Code § 62A.3-309(a).

App. 5
event they are faced with enforcement of the same
promissory Note by another party.”
The Mohrs’ arguments to the contrary are not persuasive. First, they contend that the district court
erred by relying on Allen because the trial court was
required to apply Hawaii law.3 But as noted above, “[i]n
the absence of controlling forum state law, [we] . . . may
be aided by looking to well-reasoned decisions from
other jurisdictions.” Takahashi, 625 F.2d at 316. Second, the Mohrs make numerous conclusory allegations
disputing the facts underlying this litigation, contending, for example, that their mortgage was actually paid
off in 2006; that MLB is not the true owner of their
mortgage; and that various instances of fraud have
rendered their mortgage and any subsequent assignments void. They base their allegations largely on a report from their private investigator. We agree with the
district court that the investigator’s report does not
create a genuine dispute as to the material facts underlying this litigation. See Brooke Grp. Ltd. v. Brown
& Williamson Tobacco Corp., 509 U.S. 209, 242 (1993)
(when an expert report is “not supported by sufficient
facts to validate it in the eyes of the law, or when indisputable record facts contradict or otherwise render the
opinion unreasonable,” the report cannot create a genuine dispute); Anderson v. Liberty Lobby, Inc., 477 U.S.
3

The Mohrs also argue that the district court’s error violated
their constitutional rights. “[B]ecause this argument was not coherently developed in [their] briefs on appeal, we deem it to have
been abandoned.” United States v. Kimble, 107 F.3d 712, 715 n.2
(9th Cir. 1997); see also Fed. R. App. P. 28(a)(8)(A).

App. 6
242, 249-50 (1986) (“[T]here is no issue for trial unless
there is sufficient evidence favoring the nonmoving
party. . . . If the evidence is merely colorable, or is not
significantly probative, summary judgment may be
granted.” (internal citations omitted)).
For the above reasons, we affirm the district
court’s order granting summary judgment and issuing
a decree of foreclosure in favor of MLB.
AFFIRMED.4

4
We need not reach the district court’s conclusion that the
Mohrs’ fraud claims are barred by res judicata. Even if the allegations were not barred, the Mohrs still fail to demonstrate a
genuine dispute as to fraud or forgery.

App. 7
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAI‘I
)
)
)
)
)
)
Plaintiffs,
)
Civ. No. 16-00493
)
vs.
ACK-WRP
)
MLB SUB I, LLC; JOHN
)
DOES 1-20; JANE DOES 1-20;
)
DOE PARTNERSHIPS 1-20;
)
DOE CORPORATIONS 1-20;
)
and DOE ENTITIES 1-20,
)
Defendants.
)
SANFORD A. MOHR and
TINA A. MOHR, Individually
and as Co-Trustees of their
October 15, 1996 unrecorded
revocable trust,

ORDER GRANTING DEFENDANT MLB SUB I’S
MOTION FOR SUMMARY JUDGMENT AND
ISSUING DECREE OF FORECLOSURE
(Filed Apr. 13, 2020)
The dispute underlying this litigation dates back
to 2005. Plaintiffs-Counterdefendants Sanford A. Mohr
and Tina A. Mohr (the “Mohrs”) stopped making payments on a loan, and the original lender sought to
foreclose shortly thereafter. Several assignments of
the loan later, and following the Chapter 11 bankruptcy proceedings of now-dismissed defendant and
prior owner BNC Mortgage, Inc. (“BNC”), the dispute
came to a head before this Court in mid-2019 in the

App. 8
form of a motion for summary judgment filed by BNC
and a corresponding joinder motion filed by DefendantCounterclaimant MLB Sub I, LLC (“MLB”). After the
Court granted summary judgment to the Defendants
on most of the Mohrs’ claims, the Mohrs were granted
leave to amend their complaint, which they did on October 30, 2019. MLB counterclaimed, and now before
the Court is MLB’s motion for summary judgment (the
“Motion”), ECF No. 128, in which it asserts that it is
the current holder and owner of the Note and Mortgage and seeks a decree of foreclosure.
For the reasons discussed below, the Court
GRANTS Defendant-Counterclaimant MLB’s Motion
for Summary Judgment. The Court hereby issues a
decree of foreclosure in favor of MLB, the holder of
the underlying mortgage loan. Likewise, the Court’s
holding necessarily disposes of Plaintiff ’s remaining
claims, as further explained in this Order.
BACKGROUND
Unless otherwise indicated, the following facts are
undisputed. They are principally drawn from the parties’ concise statements of facts (“CSFs”) and the evidentiary exhibits attached thereto. See MLB’s CSF,
ECF No. 129; Mohrs’ CSF, ECF No. 135.

App. 9
I.

The 2004 Mortgage Transaction and Subsequent Default

The mortgage transaction at issue took place in
2004 when, to refinance their home mortgage, the
Mohrs executed a promissory note (the “Note”) in favor
of Finance America, LLC (“Finance America”) in the
amount of $467,500. MLB’s CSF ¶ 1; Mohrs’ CSF ¶ 1
(admitting). The note was secured by a mortgage (the
“Mortgage”) executed in favor of Mortgage Electronic
Registration Systems, Inc. (“MERS”) as sole nominee
for Finance America. MLB’s CSF ¶ 2; Mot. Ex. 2, ECF
No. 128-7. The parties executed the loan documents
memorializing the transaction on April 16, 2004.
MLB’s CSF ¶¶ 1-2.
The Mohrs have not made any payments on the
loan since late 2004. MLB’s CSF ¶ 5. They have been
notified by various owners throughout the years of the
default, but they have disputed the validity of the debt.
MLB’s CSF ¶ 6; Mohrs’ CSF at p.1 (admitting to ¶ 5 of
MLB’s CSF but noting that they “disputed liability on
the claimed mortgage loan and debt”).
II.

Reassignments of the Mortgage

Based on the evidence and recorded documents
submitted by MLB, the following tracks the various
changes in ownership and recorded assignments since
the Mortgage and Note incepted:
1. On April 16, 2004, the Mohrs executed the Note and Mortgage, with Finance

App. 10
America as the original lender and MERS as
the sole nominee for Finance America.
2. In 2005, BNC merged with Finance
America.
3. On July 25, 2013, MERS as nominee
for Finance America (which had merged with
BNC) assigned the Mortgage to BNC’s parent
company, Lehman Brothers Holding, Inc.
(“Lehman Brothers”). Mot. Ex. 3, ECF No.
128-8, ECF No. 128 (the “MERS-Lehman
Brothers Assignment”). The MERS-Lehman
Brothers Assignment was recorded on April
22, 2014.
4. On September 9, 2013, Lehman
Brothers entered into a Mortgage Loan Sale
and Warranties Agreement (the “Mortgage
Sale Agreement”) to sell its interest in the
Note and Mortgage to MLB or one of its affiliates.1 Mot. Ex. 7, ECF No. 128-12.
5. On April 22, 2014, Lehman Brothers
assigned the Mortgage to MLB, and that assignment was recorded the same day. Mot. Ex.
4, ECF No. 128-9 (the “Lehman BrothersMLB Assignment”).

1

In its memorandum (ECF No. 128-1, “Mot.”), MLB
acknowledges a discrepancy with the ultimate purchaser, which
appears to be MLB, but the Mortgage Sale Agreement was signed
by Mariners LB Holdings, LLC. See Mot. at 11; see also Mot. Ex.
10, ECF No. 128-15, at p. 13 of 20. The Lehman Brothers-MLB
Assignment ultimately reflects MLB as the assignee. See Mot. Ex.
4.

App. 11
The existence of these recorded assignments is undisputed. The Mohrs simply allege that the original
Mortgage and each of these assignments was fraudulent, and that the Note was satisfied back in 2006. See
Mohrs’ CSF ¶¶ 3-4, 6-10.
III. The Lost Note Affidavit
The original Note was lost at some point since it
was executed back in 2004 and before it was sold to
MLB. MLB’s CSF ¶ 7. MLB has presented a “Lost Note
Affidavit” in place of the original Note. See Mot. Ex. 1,
ECF No. 128-6. The Lost Note Affidavit was executed
on April 4, 2013, and identifies American Home Mortgage Corp. d/b/a American Home Mortgage (“AHM”) as
the owner of the Note. See id. The Lost Note Affidavit
is signed by David Mitchell, an authorized Officer of
AHM “by its attorney in fact” Homeward Residential,
Inc., f/k/a American Home Mortgage Servicing, Inc.
(“AHM Servicing”). Id. Based on evidence in the record,
AHM or AHM Servicing appears to have at some point
been the owner or servicer of the loan. See infra, footnote 14. The Lost Note Affidavit states that “[t]he original Note could not be located after a thorough and
diligent search, which consisted of searching through
such records of [AHM] as were appropriate and reasonably accessible.” Id. The Lost Note Affidavit also
confirms that it “is intended to be relied on by the purchaser of the Note from the Company or from affiliate
of the Company and such purchaser’s successors and
assigns.” Id. A photocopy of the original Note is attached to the Lost Note Affidavit, and with the Note is

App. 12
an allonge2 containing an indorsement in blank.3 See
Mot. Ex. 1.
MLB has submitted evidence in the form of declarations showing that it, through its custodian and
counsel, has had and maintained possession of the
original Mortgage and Lost Note Affidavit (which includes a photocopy of the Note and the allonge) since
2014, after it purchased the loan from Lehman Brothers. MLB’s CSF ¶¶ 9-10; see also Mot. Ex. 10; Mot. at
9. In addition, each page of the Note and Mortgage—
including the adjustable rate rider—has been initialed
by the Mohrs, the only exception being the prepayment
rider page.4 See ECF No. 128-6 (Note); ECF No. 128-7
(Mortgage).
IV. Procedural Background
This case began in state court back in 2005. Its
procedural history is thus long and complex, involving
multiple defendants and a bankruptcy. Rather than

2

An allonge is a slip of paper sometimes attached to a negotiable instrument for the purpose of writing indorsements, often
when there is no space on the instrument itself. See Black’s Law
Dictionary (11th ed. 2019).
3
If an instrument is indorsed in blank (and the indorsement
was properly affixed to the note), it would be a bearer instrument
and therefore enforceable by the party in physical possession. See
Haw. Rev. Stat. § 490:3-205(b).
4
As addressed infra, the Mohrs dispute that the version they
actually initialed is the same as the recorded version of the Mortgage.

App. 13
reciting this history in detail, the Court focuses on
those events relevant to the Motion before it now.5
The Mohrs filed their initial complaint in Hawai‘i
state court on April 19, 2005, and their first amended
complaint several months later, against Finance America, MERS, and other entities. See ECF No. 38-4 (initial
complaint); ECF No. 38-14 (first amended complaint).
The Mohrs sought, inter alia, rescission of the Mortgage and damages under TILA, damages under Hawai‘i’s unfair or deceptive acts or practices (“UDAP”)
law, and to quiet title. ECF No. 38-14. BNC—the successor by merger with Finance America—filed for
bankruptcy a few years later, putting the state-court
proceedings on hold.6 See ECF No. 94 (“Prior MSJ
Order”) at 4-5. While the stay was in place, the Mohrs
filed a proof of claim in the bankruptcy proceedings,
ECF No. 52-5, seeking the same relief sought in their
state-court lawsuit: rescission and damages under
TILA and UDAP. See id. Lehman Brothers filed objections on BNC’s behalf, and the bankruptcy court ultimately granted those objections and disallowed and
expunged the Mohrs’ claims, with prejudice. See id. at
5-6; ECF No. 52-8 (bankruptcy order).
MLB intervened in the state-court action in 2016
and then removed it to federal court. See Prior MSJ
Order at 6; see also ECF No. 1. The bankruptcy stay
5

The Court’s prior order ruling on BNC’s summary judgment motion and MLB’s joinder contains a detailed factual and
procedural history as well. See ECF No. 94 at 2-7.
6
The bankruptcy proceedings were consolidated with those
of BNC’s parent company, Lehman Brothers.

App. 14
was eventually lifted and this Court heard arguments
on a motion for summary judgment filed by BNC, ECF
No. 51, as well as a substantive joinder motion filed by
MLB, ECF No. 53. On June 13, 2019, the Court granted
summary judgment to BNC. See Prior MSJ Order at
22. In large part, the Court held that res judicata
barred the Mohrs’ claims because they had already
been litigated and decided in the bankruptcy proceedings. See id. at 9-20. The Court also granted MLB’s
joinder motion to the extent that it sought the same
relief as BNC and denied the joinder motion to the extent that it went beyond the scope of BNC’s corresponding motion. Id. The Court recognized MLB’s
privity with BNC, but expressly declined to decide the
validity and ownership of the Mortgage and Note because doing so would exceed the relief sought by BNC
in its motion. Id.
After the Prior MSJ Order disposed of the majority of their claims, the Mohrs sought leave to amend
their complaint, which Magistrate Judge Porter
granted in part. ECF Nos. 106 & 114. Meanwhile, the
parties had stipulated to dismiss the action against
BNC with prejudice. ECF No. 112. The Mohrs then
filed their second amended complaint (the “Amended
Complaint”),7 ECF No. 115, on October 30, 2019,
7

The Court acknowledges MLB’s observation that ECF No.
115, the document labeled “First Amended Complaint” on the
docket is actually the second amended complaint. See Mot. 3 n.1;
see also ECF No. 38-4 (complaint filed in state court) & ECF No.
38-14 (first amended complaint filed in state court). For consistency, the Court will simply refer to the operative complaint—
that is, ECF No. 115—as the “Amended Complaint.”

App. 15
asserting four causes of action against MLB: (1) wrongful foreclosure, (2) declaratory relief under Haw. Rev.
Stat. (“HRS”) § 632-1, (3) quiet title, and (4) damages
under UDAP.8 Am. Compl. ¶¶ 9-19. MLB counterclaimed, seeking judicial foreclosure, as well as equitable and declaratory relief. ECF No. 116 (the
“Counterclaim”).
MLB filed the instant Motion and CSF on January
20, 2020, seeking summary judgment on “its Counterclaim’s first claim for relief for judicial foreclosure under Haw. Rev. Stat. § 667-1.5. . . .” ECF No. 128 at 2.
Specifically, MLB seeks a ruling that it is entitled to
a decree of foreclosure, which it says would then by extension dispose of the Mohrs’ remaining claims. See
Mot. at 1. The Mohrs filed their Opposition to MLB’s
Motion, ECF No. 136, and their separate CSF, ECF No.
135, on February 4. In their Opposition, the Mohrs allude to cross-moving for summary judgment in their
favor on the claims in their Amended Complaint. Opp.
at 1. MLB filed its Reply, ECF No. 138, and responsive
CSF, ECF No. 137, on February 11, and the Court
heard oral arguments on February 25.
At the hearing, the Court directed the parties to
file supplemental briefing calculating the outstanding
amount of the loan with interest. MLB properly filed
its brief containing detailed calculations of the loan
8

Because the Amended Complaint no longer named MERS,
Deutsche Bank National Trust Company, and HomeQ Servicing
Corporation—all of whom had been named as defendants in the
prior complaints—those parties were terminated and MLB is the
sole remaining named defendant.

App. 16
balance. See ECF No. 142. The Mohrs responded not
by addressing the validity of those calculations, but
by rehashing the same arguments they made in their
Opposition and by presenting entirely new factual evidence not presented to the Court in the original motions briefing. See ECF No. 143. In light of that new
evidence, the Court provided MLB with a final opportunity to respond, which it did on April 6, 2020. See
ECF No. 146.
STANDARD
Summary judgment is proper where there is no
genuine issue of material fact and the moving party is
entitled to judgment as a matter of law. Fed. R. Civ. P.
56(a). Federal Rule of Civil Procedure 56(a) mandates
summary judgment “against a party who fails to make
a showing sufficient to establish the existence of an
element essential to the party’s case, and on which that
party will bear the burden of proof at trial.” Celotex
Corp. v. Catrett, 477 U.S. 317, 322, 106 S. Ct. 2548,
2552 (1986); see also Broussard v. Univ. of Cal., 192
F.3d 1252, 1258 (9th Cir. 1999).
“A party seeking summary judgment bears the initial burden of informing the court of the basis for its
motion and of identifying those portions of the pleadings and discovery responses that demonstrate the absence of a genuine issue of material fact.” Soremekun
v. Thrifty Payless, Inc., 509 F.3d 978, 984 (9th Cir. 2007)
(citing Celotex, 477 U.S. at 323, 106 S. Ct. at 2553); see
also Jespersen v. Harrah’s Operating Co., 392 F.3d

App. 17
1076, 1079 (9th Cir. 2004). “When the moving party has
carried its burden under Rule 56[(a)] its opponent
must do more than simply show that there is some
metaphysical doubt as to the material facts [and] come
forward with specific facts showing that there is a
genuine issue for trial.” Matsushita Elec. Indus. Co. v.
Zenith Radio, 475 U.S. 574, 586-87, 106 S. Ct. 1348,
1356 (1986) (citation and internal quotation marks
omitted and emphasis removed); see also Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct.
2505, 2509-10 (1986) (stating that a party cannot “rest
upon the mere allegations or denials of his pleading”
in opposing summary judgment).
“An issue is ‘genuine’ only if there is a sufficient
evidentiary basis on which a reasonable fact finder
could find for the nonmoving party, and a dispute is
‘material’ only if it could affect the outcome of the suit
under the governing law.” In re Barboza, 545 F.3d 702,
707 (9th Cir. 2008) (citing Anderson, 477 U.S. at 248,
106 S. Ct. at 2510). When considering the evidence on
a motion for summary judgment, the court must draw
all reasonable inferences on behalf of the nonmoving
party. Matsushita Elec. Indus. Co., 475 U.S. at 587, 106
S. Ct. at 1356; see also Posey v. Lake Pend Oreille Sch.
Dist. No. 84, 546 F.3d 1121, 1126 (9th Cir. 2008) (stating that “the evidence of [the nonmovant] is to be believed, and all justifiable inferences are to be drawn in
his favor” (internal citation and quotation omitted)).

App. 18
DISCUSSION
At issue in this case is whether MLB is entitled to
a decree of foreclosure. The Mohrs argue that MLB has
failed to prove the requisite judicial-foreclosure elements. Their primary arguments are that the Note was
paid off (though they do not say by whom) and that
MLB cannot establish the chain of title showing that it
is the lawful owner of the Note and Mortgage. The
Court disagrees and holds that MLB has proven the
requisite foreclosure elements and that it has standing
to foreclose on the Mohrs’ property. The Mohrs’ conclusory claims of fraud and attempts to impose a nonexistent requirement that MLB prove the validity of each
transfer of title are unpersuasive. Accordingly, as discussed below, the Court GRANTS summary judgment
to MLB and enters a decree of foreclosure as stated. To
the extent that the Mohrs cross-move for summary
judgment on their claims in the Amended Complaint,
such motion is DENIED.
I.

MLB has Established the Foreclosure Elements and that it has Standing to Foreclose

In general, there is no federal foreclosure law; rather, state law serves as the law of decision in foreclosure actions. See Whitehead v. Derwinski, 904 F.2d
1362, 1371 (9th Cir. 1990), overruled on other grounds
by Carter v. Derwinski, 987 F.2d 611 (9th Cir. 1993).
Under Hawai‘i law, a foreclosure decree is appropriate
if all four of the following material facts have been established: (1) the existence of a promissory note,

App. 19
mortgage, or other debt agreement; (2) the terms of the
promissory note, mortgage, or other debt agreement;
(3) default by the borrower under the terms of the
promissory note, mortgage, or other debt agreement;
and (4) the giving of sufficient notice of default and
that payment of the debt is due and owning. IndyMac
Bank v. Miguel, 117 Haw. 506, 520, 184 P.3d 821, 835
(Ct. App. 2008); see also McCarty v. GCP Mgmt., LLC,
Civ. No. 10-00133 JMS/KSC, 2010 WL 4812763, at *8
(D. Haw. Nov. 17, 2010); Bank of Honolulu, N.A. v.
Anderson, 3 Haw. App. 545, 551, 654 P.2d 1370, 1375
(Ct. App. 1982).
The foreclosing party’s burden to prove its entitlement to enforce the note overlaps with the requirements of standing. Bank of Am., N.A. v. Reyes-Toledo,
139 Haw. 361, 367-68, 390 P.3d 1248, 1254-55 (2017)
(“Toledo I”); see also Bank of Am., N.A. v. Reyes-Toledo,
143 Haw. 249, 264-65, 428 P.3d 761, 776-77 (2018) (“Toledo II”). The “underlying ‘injury in fact’ to a foreclosing
[party] is the mortgag[or]’s failure to satisfy its obligation to pay the debt obligation to the note holder.” Id.
at 368, 390 P.3d at 1255. Thus, to establish standing,
the foreclosing party “must necessarily prove its entitlement to enforce the note as it is the default on the
note that gives rise to the action.” Id. (citing HRS
§ 490:9-601).
As discussed in detail below, the record shows that
MLB has established as a matter of law all four factors
necessary for a foreclosure decree, and that it has
standing to enforce the loan documents.

App. 20
a. MLB Has Established the Existence
and Terms of the Note and Mortgage,
the Mohrs’ Default Thereunder, and the
Notice of Default
First, MLB has established all four of the foreclosure factors as a matter of law. As to the first two factors, the existence of the Note and Mortgage is
undisputed. MLB has offered evidence showing that on
April 16, 2004, the Mohrs executed the promissory
Note in favor of Finance America for $467,500, and, to
secure payment on the Note, the Mohrs executed the
Mortgage, which was recorded in the Bureau of Conveyances on April 27, 2004. MLB’s CSF ¶¶ 1-2.
The Mohrs admit to executing the Note and Mortgage, but they maintain that the recorded version of
the Mortgage is not the same version they signed, rendering it void. Mohrs’ CSF ¶¶ 1-2; Mohr Decl. ¶¶ 8-13,
24-32. This Court already held in the Prior MSJ Order
that such allegations of fraud and forgery could have
been raised in the bankruptcy action and are thus
barred by res judicata. See Prior MSJ Order at 12 (“If
anything, these allegations are merely an ‘extension of
facts’ already presented in the bankruptcy action, or
facts that could have been raised in the bankruptcy action.”). Accordingly, the Court will not rehash the
Mohrs’ allegations of fraud or forgery in the Mortgage,
when they surely have had in their possession copies
of the recorded Mortgage and the version they allege
signing all this time. The Court reiterates its prior observation that the Mohrs have offered no explanation

App. 21
for failing to raise these allegations earlier. See Prior
MSJ Order at 11-13.
The terms of the Mortgage and Note do not appear
to be in dispute anyway.9 The Mohrs have not challenged the terms of the original Note at all; they only
allege that it was satisfied in 2006 and that, regardless,
MLB is not the proper party to now enforce payment
of the Note (which they inexplicably say is no party at
all, other than themselves as the owners of the property). And their challenges to the Mortgage are focused
not on the terms of the loan documents they admit
signing, but on the validity of the recorded documents.
Although they argue that the recorded version of the
Mortgage is not the same as the one they admit to
signing, the Mohrs have not pointed to any material
differences. As discussed throughout this Order, their
assertions of forgery and fraud are simply not supported by the evidence. They have not shown that there
was any misrepresentation of any party’s obligations
under the Mortgage, or any reliance on such misrepresentations. Because there is no genuine dispute regarding the existence or terms of the Note and
Mortgage, MLB has satisfied the first and second of the
foreclosure requirements.
MLB has also shown—and the Mohrs have not
disputed—that the Mohrs defaulted on the loan and
were notified of such default, thus satisfying the third
and fourth foreclosure factors. Roughly six months
9

In fact, the Mohrs initialed each page of the Note and Mortgage, signaling their review of the terms.

App. 22
after executing the Note and Mortgage, the Mohrs
stopped making the scheduled payments and have remained in default ever since.10 After the Mohrs became
delinquent in their payments, written notice was provided concerning the default and the intention to accelerate the loan and foreclose the mortgage if the
default was not cured.11 See Exs. 5 & 15 to MLB’s CSF.
Despite receiving notice, the Mohrs neglected to cure
the default. Accordingly, there is no genuine dispute regarding the Mohrs being in default or having received
notice of such default, and MLB has thus satisfied the
third and fourth requirements to foreclose. See Anderson, 3 Haw. App. at 550, 654 P.2d at 1375.
In sum, MLB has met its burden of proving all four
of the foreclosure prongs, and the Mohrs have failed to
“set forth specific facts showing that there is a genuine
issue for trial.” See Porter v. Calif. Dep’t of Corrections,
419 F.3d 885, 891 (9th Cir. 2005). The Court now turns
to the overlapping question of whether MLB has
standing as the “person entitled to enforce” the Note
and Mortgage.

10

The Mohrs claim that they cannot have been in default
when the Mortgage and Note were paid off in 2006. As discussed
in detail in this Order, the Mohrs have offered no persuasive evidence in support of their assertion that the note was paid off and
satisfied.
11
The Mohrs do not contest this. They simply assert that
they disputed the validity of the debt and that the debt was mysteriously paid off after the loan was securitized.

App. 23
b. MLB Has Established That It Has Standing to Enforce the Note and Mortgage
As mentioned, the burden of proving entitlement
to a foreclosure decree overlaps with the burden of establishing standing to foreclose. Whether a party has
standing as a “person entitled to enforce” a promissory
note is governed by statute:
“Person entitled to enforce” an instrument
means (i) the holder of the instrument, (ii) a
nonholder in possession of the instrument
who has the rights of a holder, or (iii) a person
not in possession of the instrument who is
entitled to enforce the instrument pursuant
to section 490:3-309 or 490:3-418(d). A person
may be a person entitled to enforce the instrument even though the person is not the owner
of the instrument or is in wrongful possession
of the instrument.
HRS § 490:3-301. In other words, when a person is not
the original payee identified on the note, there are
three ways for a person to establish that it is the “person entitled to enforce” the note: It can show that it is
(1) a holder of the note, (2) a nonholder in possession of
the note with the rights of a holder, or (3) not in possession of the note but entitled to enforce it pursuant
to the cross-referenced statutes.
Here, MLB’s standing arguments hinge on it being
either or both a “holder” of the note and a person not
in possession of the instrument but entitled to enforce
it under HRS § 490:3-309, which governs enforcement
of “lost, destroyed, or stolen” instruments. This latter

App. 24
concept allows a party to enforce a lost instrument if it
can prove the terms of the instrument and its right to
enforce the instrument. HRS § 490:3-309(a) lists three
requirements for a person to enforce a lost instrument:
(i) the person was in rightful possession of the
instrument and entitled to enforce it when
loss of possession occurred, (ii) the loss of possession was not the result of a transfer by the
person or a lawful seizure, and (iii) the person
cannot reasonably obtain possession of the
instrument because the instrument was destroyed, its whereabouts cannot be determined, or it is in the wrongful possession of an
unknown person or a person that cannot be
found or is not amenable to service of process.
HRS § 490:3-309(a). If a person successfully proves the
right to enforce the instrument under HRS § 490:3309(a), the person is treated as having produced the
original instrument. Id. § 490:3-309(b); see also id.
§ 490:3-308. Simply put, the plain meaning of HRS
§ 490:3-309 is that a person not in possession of an
original instrument is entitled to enforce it so long as
the person was in possession and entitled to enforce it
when the loss of possession occurred.
The Ninth Circuit has concluded that even where
a person was not the party in possession of the note
when it was lost, the rights to a lost note may still be
enforced by a downstream assignee of the note. See
In re Allen, 472 B.R. 559, 565-66 (9th Cir. B.A.P. 2012)
(collecting cases and affirming the bankruptcy court’s
holding that “rights under a lost note may be

App. 25
assigned”). To establish a right to enforce a lost note
under HRS § 490:3-309, courts rely on lost note affidavits, which are “used to establish a party’s right to enforce a note even without possession of the original
instrument.” Specialized Loan Serv. LLC, Civ. No.
RDB-16-3743, 2017 WL 1001257, at *2 n.3 (D. Md. Mar.
15, 2017).
There is very little case law interpreting Hawai‘i’s
statute on enforcing lost instruments. MLB has offered
one Ninth Circuit case in which a bankruptcy appellate panel held that an assignee of a lost note had
standing to enforce the lost note under a Washington
statutory scheme identical to the one at issue here. See
In re Allen, 472 B.R. at 565-66. In In re Allen, the panel
affirmed the bankruptcy court’s finding that a lost note
affidavit was an acceptable substitute for the original
note because the affidavit complied with the statutory
requirements for enforcement of lost instruments,
identical to those requirements in HRS § 490:3-309. Id.
Although the party seeking to enforce the note was not
the one in possession of the original note when it was
lost, the panel agreed that it held the rights in the lost
note pursuant to a subsequent assignment and its possession of the lost note affidavit. Id. at 566.
The panel went on to hold that, because the original note was indorsed in blank, it was a “bearer instrument,” meaning it could be negotiated by transfer of
possession alone. Id. at 567. Thus, the foreclosing
party’s showing that it had in its possession the lost
note affidavit and a copy of the note indorsed in
blank—which it had purchased from the prior owner—

App. 26
was sufficient to give it the “status of a holder and a
‘person entitled to enforce’ the instrument. . . .” Id.
To unpack the holding in In re Allen, a summary
of the law concerning a “holder” of a negotiable instrument is useful. A “negotiable instrument” is an “unconditional promise or order to pay a fixed amount of
money” if it, among other things, is “payable to bearer
or to order at the time it is issued or first comes into
possession of a holder.” HRS § 490:3-104. If an instrument is indorsed in blank, it “becomes payable to
bearer and may be negotiated by transfer of possession
alone until specially indorsed.” Id. § 490:3-205(b). “Negotiation” is defined as “a transfer of possession,
whether voluntary or involuntary, of an instrument by
a person other than the issuer to a person who thereby
becomes its holder.” Id. § 490:3-201(a). In turn,
“Holder” is defined as “[t]he person in possession of a
negotiable instrument that is payable either to bearer
or to an identified person that is the person in possession.” HRS § 490:1-201(b); see also In re Tovar, Nos.
CC-11-1696-MkDKi, LA-10-41664-BR, LA-10-03016BR, 2012 WL 3205252, at *5 (9th Cir. B.A.P. Aug. 3,
2012) (explaining the circumstances where a party is a
“holder” of a negotiable instrument). In other words,
like the court held in In re Allen, once a note indorsed
in blank is negotiated, the subsequent party becomes
a holder and, thereby, a person entitled to enforce the
note. See id. § 490:3-201; see also In re Allen, 472 B.R.
at 565-67.
Here, because it is undisputed that the original
Note is lost and all that MLB has produced is the Lost

App. 27
Note Affidavit with a photocopy of the Note (showing
the Mohrs’ initials) and the allonge, the Court must decide whether MLB’s possession of these items provides
it with the present right to enforce the Note. The Court
holds that it does.
i. MLB’s Right to Enforce the Note Based
on the Lost Note Affidavit
MLB has submitted evidence showing that (1) a
loan was made and secured by the Note and Mortgage
in favor of Finance America in April 2004; (2) the Note
contained an allonge with an indorsement in blank; (3)
the original Note was lost and a Lost Note Affidavit
was signed in April 2013; and (4) MLB bought the Note
and Mortgage from Lehman Brothers in September
2013, through the Mortgage Sale Agreement.12 MLB
has also submitted evidence establishing that it obtained possession of the Lost Note Affidavit in connection with its purchase of the loan. MLB now relies on
the Lost Note Affidavit as evidence of the terms of the
original Note.
The Lost Note Affidavit produced by MLB is
signed by “a duly authorized Officer” of AHM “by its
attorney in fact” AHM Servicing. See Lost Note Affidavit. In this regard, the Lost Note Affidavit characterizes AHM as the lawful owner of the Note at the time
the Note was lost and the affidavit sworn. See id. The
12

The Mortgage Sale Agreement expressly lists—among
other loan purchases—the transfer of the Mortgage and Note on
the Mohrs’ property, with reference to the Lost Note Affidavit.

App. 28
Lost Note Affidavit confirms that it may also be relied
on by the purchaser and successors and assigns. Id. In
turn, the Lost Note Affidavit encloses a photocopy of
the original Note with each page initialed by the
Mohrs, as well as a photocopy of the allonge with an
indorsement in blank.
Evidence in the record indicates that at some
point AHM indeed came to own or service the mortgage.13 Still, a few months after the Lost Note Affidavit
was signed, the Mortgage and Note were sold and assigned from MERS (on behalf of the original lender,
Finance America) to Lehman Brothers and then from
Lehman Brothers to MLB. MLB has submitted evidence showing that it purchased the rights under the
Mortgage and Note for $466,73714 through the

13

See ECF No. 52-5 at pp. 71-72 (letter dated June 10, 2008,
advising the Mohrs that a new loan servicer, AHM Servicing,
would be handling their payments); ECF No. 52-5 at p. 76 (December 2, 2008 letter sent by the Mohrs’ attorney noting, “We are
informed that the mortgage was assigned to American Home
Mortgage”). Strangely, the latter correspondence was sent along
with the Mohrs’ signatures on a release of Mortgage, which was
to be signed by BNC—presumably understood to be the owner of
the Mortgage at the time—in connection with a settlement arrangement. See id. That settlement ultimately fell apart, and the
release the Mohrs and BNC had signed was rescinded on February 4, 2009 (reestablishing BNC as the owner). See Mot. at 10;
Prior MSJ Order at 3-4; see also ECF No. 52-7 (recorded rescission).
14
The Court understands that this is the amount MLB paid
based on the copy of the Mortgage Sale Agreement submitted as
an exhibit by MLB. See Mot Ex. 7. The Agreement lists the purchase price for each asset as the amount listed in the asset

App. 29
Mortgage Sale Agreement. MLB has also provided evidence that it, through its custodian and counsel, has
had and maintained possession of the original Lost
Note Affidavit—which includes a photocopy of the original Note and allonge—since MLB purchased the
loan.15 MLB’s CSF ¶¶ 9-10; see also Mot. at 9.
The Mohrs have offered nothing to dispute these
facts. Their only responses to MLB’s reliance on the
Lost Note Affidavit are that the Note was “in a REMIC
[real estate mortgage investment conduit] and paid in
2006” and that “MLB cannot be a lawful beneficiary of
a mortgage if it lacked possession of the promissory
note.” Opp. ¶ 36. On their first point, it is not clear to
the Court why exactly the REMIC matters. Cf. Klohs v.
Wells Fargo Bank, N.A., 901 F. Supp. 2d 1253, 1259-60
(D. Haw. 2012) (explaining that “[s]ecuritization does
not alter the relationship or rights of the parties to the
loan” and “does not modify the terms of the underlying
obligations”). And the Mohrs’ position that the Note
was paid off and satisfied in 2006 is unpersuasive. The
schedule, and the amount listed for the Mohrs’ property is the
unpaid principal balance, $466,737. Id.
15
In its supplemental brief meant to address interest calculations, the Mohrs raise for the first time the argument that AHM
was in Chapter 11 bankruptcy since August 2007, which—according to the Mohrs—is further evidence that the Lost Note Affidavit
is “a fraud on the Court.” ECF No. 143 ¶ 8. The Mohrs fail to allege the particulars of any such “fraud,” nor do they explain how
the prior owner’s bankruptcy would impact MLB’s current status
as the possessor of the Lost Note Affidavit. Without such particulars, the Court sees no genuine issue of material fact raised by the
Mohrs’ unproven assertion that AHM was previously in bankruptcy.

App. 30
Mohrs’ only support for this argument is a declaration
made by their private investigator William J. Paatalo,
who opined that the “chain of title for the Mohr Mortgage is clouded and cannot be verified” and that the
Note appears to have been “paid off ” sometime in 2006.
See ECF No. 135-3 (“Paatalo Decl.”). This declaration—
which was previously before the bankruptcy court and
then this Court in connection with BNC’s motion for
summary judgment—does not create any dispute as to
the material facts: whether the Mohrs defaulted on the
loan and whether MLB is the party with standing to
enforce Note and Mortgage.16 The Mohrs have simply
provided no evidence that they or anyone on their behalf paid off the loan.17
16

Paatalo’s only “proof ” that the loan has been paid off is a
notation in an electronic database of a trust showing a blank
space for the “current loan balance.” See Ex. 8 to Paatalo Decl.
The database contains several blank spaces for what might be relevant information about the loan, and the Mohrs have offered no
evidence of any payment, including the amount, date, or payor.
Not to mention, the “release” that Paatalo relies on to opine that
the Mortgage was satisfied was expressly rescinded after the settlement that led to the initial release failed. See Mot. at 5-6 & n.5
& n.6 (discussing rescission based on failed TILA settlement); Reply at 8 & n.5 (same); see also ECF No. 94 (prior order discussing
the recording of the document rescinding and cancelling the release, ECF No. 52-7).
17
The Court also cannot help but wonder why the Mohrs
would possibly have agreed to enter into settlement discussions
with BNC in 2008—two years after they say the loan was paid off.
The settlement terms would have had the Mohrs paying
$463,394.32 to the prior lender, the amount of the original loan
less some bank charges and interest payments made, when the
loan had purportedly already been satisfied. Faced with this question at the hearing, counsel for the Mohrs indicated that they

App. 31
The Mohrs’ second point regarding MLB lacking
possession of the original Note fares no better. The
statutory scheme plainly provides for alternatives to
enforcing an instrument when a party seeking to enforce lacks possession of the original document. Here,
MLB has offered into evidence the Lost Note Affidavit,
which establishes that a prior owner or servicer had
possession of the Note and affirmed under oath that
the Note was lost and its whereabouts could not be determined, and that affiliates, successors, and assigns
could rely on the Affidavit as proof of the lost Note.
Likewise, MLB submitted evidence that it purchased
the Note and Mortgage and, in doing so, took possession of the original Lost Note Affidavit and allonge.
From that point on, the Lost Note Affidavit became the
substitute for the Note.
Applying the analysis in In re Allen, the Lost Note
Affidavit—standing in for the Note—is a bearer instrument, which may “be negotiated by the transfer of possession alone. . . .” See HRS §§ 490:3-204(a) & 490:3205(b); see also In re Allen, 472 B.R. at 567 (“As a
bearer instrument, the Note was negotiable by transfer of possession alone.”). Like the instrument in In re
Allen, the Note here contains an indorsement in blank.
Although the indorsement in blank is on an allonge rather than on the face of the instrument like in In re
were not aware that the loan had been paid by some unknown
party within the trust until they hired Paatalo to investigate the
title in 2018. Their phantom-payment theory defies common
sense. And the Mohrs have offered no factual evidence of such a
payment.

App. 32
Allen, that distinction is irrelevant because the undisputed evidence in the record shows that the allonge
was “affixed to” the original Note.18 Cf. In re Allen, 472
B.R. at 567 (discussing In re Weisband, 427 B.R. 13 (D.
Ariz. Bankr. 2010), which held that GMAC failed to
establish that it was a holder of the note because the
evidence did not demonstrate that the allonge was affixed to the note). The allonge is thus treated as being
made on the face of the Note. See HRS § 490:3-204(a)
(“For the purpose of determining whether a signature
is made on an instrument, a paper affixed to the instrument is a part of the instrument.”).
Accordingly, because the Note is indorsed in blank,
it is a bearer instrument enforceable by a showing of
18

Plaintiff has not challenged the validity of the allonge or
whether it was “affixed to” the original Note. Regardless, the evidence submitted by MLB establishes it was. A review of the record
shows that the allonge has been together with the copies of the
Note submitted previously to this Court and to the bankruptcy
court. The allonge also references the correct loan number, and
MLB’s custodian has attested that the Note and allonge have
been together in its possession since it purchased the loan. Moreover, the photocopy of the original Note and allonge (both attached to the Lost Note Affidavit) have consistent facial markings
showing staple marks in the top left corner and two-hole punches
at the top center of the papers, which indicates that the allonge
was affixed to the Note. See Lost Note Affidavit. Compare In re
Tovar, 2012 WL 3205252 at *6 (holding that bankruptcy court did
not clearly err in holding that allonge was affixed to note even
though document did not contain consistent hole-punch marks),
with U.S. Bank, N.A. v. Miller, 2013 WL 12114100, at *7 (C.D.
Cal. Sept. 30, 2013) (holding that evidence failed to show that allonge was “affixed to” the note because the documents were attached as separate exhibits and there was no indication that the
allonge was physically attached).

App. 33
possession. MLB has established its uninterrupted
possession of the Lost Note Affidavit since late 2014,
which entitles it to enforce the terms of the Note. Under these circumstances, MLB has demonstrated that
it has standing to pursue rights under the Note and
Mortgage as a holder and person not in possession of
the Note but entitled to enforce it pursuant to HRS
§ 490:3-309.19
ii. The Mohrs’ Arguments in Opposition
The Mohrs assert three main arguments in opposition, none of which the Court finds persuasive. See
Opp. ¶ 1. They argue that (1) MLB “never invested in
the mortgage loan nor paid anything to the Mohrs,” id.
¶¶ 17, 24; (2) the Note and Mortgage have been satisfied, id. ¶ 4; and (3) the original Mortgage and subsequent assignments are all void, id. ¶¶ 2, 5, 19-23. The
Court rejects these arguments and will address each
in turn.
The Mohrs’ first two arguments are easily disposed of. The Mohrs have not cited any Hawai‘i law to
support their argument that MLB could not have an
interest in the Mortgage merely because it never “paid
19

Because Hawai‘i follows the common-law rule that a transfer of an obligation secured by a security interest (here, the Note)
also transfers the security interest (here, the Mortgage on the
property), HRS § 490:9-203(g), that MLB has established its interest in the Note is sufficient to also establish its ownership of
the Mortgage, regardless of the Mohrs’ claims of fraudulent assignments. Cf. Toledo I, 139 Haw. at 372 n.17, 390 P.3d at 1259
n.17.

App. 34
anything to the Mohrs.” Opp. ¶ 17. MLB has submitted
evidence of the Mortgage Sale Agreement with Lehman Brothers, through which the latter agreed to assign the Mortgage to MLB in exchange for payment.
Payment to the mortgagor is not a condition of foreclosing on mortgage. On the Mohrs’ second point—that the
Note and Mortgage have been satisfied—the Court already rejected this argument above. The Mohrs have
not provided sufficient evidence to create a genuine issue of material fact as to whether the Note has been
satisfied.
The Mohrs’ third argument is the crux of their Opposition. The Mohrs claim that the original Mortgage
and subsequent assignments are all fraudulent and invalid. In this regard, their Opposition makes sweeping
allegations of fraud and forgery to contend that the
original Mortgage and subsequent assignments are all
void.
Not only does this argument fly in the face of the
fact that the Mohrs’ initials appear on each page of the
Mortgage and Note, but as the Court alluded to above
and discussed in its Prior MSJ Order, these arguments
are largely barred by the doctrine of res judicata. See
Prior MSJ Order at 11-12. The Mohrs’ claims were or
could have been raised in BNC’s bankruptcy proceedings or in the prior summary judgment proceedings
before this Court. And while the Mohrs have attempted
to now clarify some of their past fraud allegations—
including by listing the apparent “differences” between the recorded version of the Mortgage and the
version the Mohrs claim they actually signed, Mohr

App. 35
Decl. ¶ 8—they have provided no indication for why
these arguments were not raised before the bankruptcy court and then this Court in connection with
BNC’s motion for summary judgment and MLB’s associated joinder.
Regardless, the Mohrs at best point out clerical
errors or immaterial differences that have absolutely
no impact on the terms of the agreement that they
themselves admit to signing. See Paik-Apau v.
Deutsche Bank Nat’l Tr. Co., Civ. No. 10-00699
SOM/RLP, 2012 WL 6569289, at *3-4 (D. Haw. Dec. 14,
2012) (rejecting arguments that clerical errors rendered mortgage void when the mortgagor failed to
show “that the substance of any of her own loan obligations [wa]s misrepresented or altered”); U.S Bank
Nat’l Ass’n v. Benoist, 136 Haw. 373, 362 P.3d 806 (Table) (Ct. App. 2015) (rejecting arguments of fraud because the mortgagors failed to cite facts or law showing
how supposed irregularities “caused them any harm of
damages”). The Court holds that Mohrs have not
raised any genuine issue of material fact with respect
to the validity of the Mortgage.
As to the Mohrs’ attempts to challenge the assignments of the Mortgage, res judicata would also apply
because they raised or could have raised these challenges before the bankruptcy court after the assignments were made. Nonetheless, the Court will briefly
address the Mohrs’ arguments on this point. The
Mohrs primarily argue that some entities lacked the
power and authority to transfer the Mortgage, and
therefore MLB is without good title to enable it to

App. 36
foreclose on the secured property. In essence, the
Mohrs suggest that MLB must prove the validity of
each and every transfer in the chain of title before it
can foreclose on the property.20 While MLB must prove
it has standing to foreclose, “this court has never required a lender to go back and establish that every person or entity who assigned a note and mortgage had
the power to do so.” Deutsche Bank Tr. Co. v. Beesley,
Civ. No. 12-00067 SOM/KSC, 2012 WL 5383555, at *4
(D. Haw. Oct. 30, 2012) (collecting cases); see also PaikApau, 2012 WL 6569289 at *4 (“There is simply no requirement that a lender go back through the chain of
title before foreclosing on a loan to prove that every assignment of the loan was valid.”).
Moreover, Hawai‘i law is well settled that borrowers like the Mohrs generally lack standing to challenge
the assignments of their loans. See Beesley, 2012 WL
5383555 at *4 (collecting cases). The Mohrs cannot
show that they were parties to any of the assignments
and, therefore, they cannot dispute the validity of
those contracts. The Mohrs would only have authority
to challenge the assignments as void, not merely as
voidable. Igarashi v. Deutsche Bank Nat’l Tr. Co., Civ.
No. 19-00083 JAO/KJM, 2019 WL 6689882, at *6 (D.
Haw. Dec. 6, 2019); U.S. Bank N.A. v. Mattos, 140 Haw.
26, 35, 398 P.3d 615, 624 (2017); see Paik-Apu, 2012
20

The Mohrs list “3 known fraudulent mortgage assignments involved in this case.” Opp. ¶ 19. As MLB points out in its
Reply, it is unclear what third assignment the Mohrs are referring to. See Reply at 11-12. The two relevant assignments are
MERS-Lehman Brothers and Lehman Brothers-MLB.

App. 37
WL 6569289 at *3 (holding that assignee had standing
to foreclose even though a transfer to it may technically have been “voidable by one of the parties to the
transfer”). None of the Mohrs’ arguments support a
finding that the Mortgage is void.21 Accordingly, the
Mohrs lack standing to challenge—and MLB is not
burdened with proving—the validity of each of the assignments.
The Mohrs’ arguments also fail on the merits. The
Mohrs argue in part that the MERS-Lehman Brothers
Assignment is void because MERS lacked the agency
and authority to transfer the Note and Mortgage. Their
argument is that MERS’s agency ended when Finance
America was dissolved following its merger with BNC.
Opp. ¶ 5. Thus, they say, MERS’s interest in the Note
and Mortgage had “expired” and it was not authorized
21

See Lowther v. U.S. Bank N.A., Civ. No. 13-00235 LEK-BMK,
2014 WL 2452598, at *7 (D. Haw. May 30, 2014) (noting that
allegations that a prior assignor lacked authority to assign a
loan would “make the assignments voidable, not void, and thus
do not support mortgagor standing”); see also Igarashi, 2019 WL
6689882 at *6-7 (collecting cases on void versus voidable). The
only exception would be their argument under Hawai‘i’s UDAP
law. Courts in this district have held that a contract formed in
violation of UDAP laws is void. See, e.g., Bateman v. Countrywide
Home Loans, Civ. No. 12-00033 SOM/BMK, 2013 WL 2181131, at
*1 (D. Haw. May 20, 2013). This argument holds no weight, however, because the Court has already dismissed the Mohrs’ UDAP
claims as barred by res judicata and conclusory allegations of
UDAP violations would not create a material factual dispute.
Cf. Igarashi, 2019 WL 6689882 at *7 (“Plaintiffs’ conclusory claim
that Defendants have engaged in unfair or deceptive trade practices is also insufficient to demonstrate standing to challenge the
assignment.”).

App. 38
to assign any interest to Lehman Brothers (who in
turn assigned the Mortgage to MLB). Id. ¶ 19. These
arguments are inconsistent with Hawai‘i law.22 See
In re Tyrell, 528 B.R. 790, 794 (D. Haw. Bankr. 2015)
(holding that indorsements on a promissory note by
out-of-business payees did not raise a genuine issue
that the indorsements were forged); Bank of Am. v.
Hill, 136 Haw. 372, 362 P.3d 805 (Table) (Ct. App. 2015)
(rejecting a similar argument that MERS had improperly assigned a mortgage on behalf of the principal entity, which no longer existed at the time of the
assignment). Regardless, the plain language of the
Mortgage here clearly granted MERS the authority to
act on behalf of Finance America and its successors
and assigns. See Mortgage (“MERS is a separate corporation that is acting solely as nominee for Lender
and Lender’s assigns”).
In sum, the Mohrs have failed to present sufficient
evidence to contradict MLB’s showing that its purchase through the Mortgage Sale Agreement and possession of the Lost Note Affidavit made it the holder or
22

The Mohrs cite Toledo II as authority for their argument
that the MERS-Lehman Brothers Assignment was a sham because MERS was acting as a “strawman.” Yet Toledo II barely
discusses the issue of MERS’s authority or its position in the
loan process. The court merely lists the homeowner’s argument
that a prior assignment was a sham because “MERS was not
the mortgagee” and “acted only as a strawman” as one of several
arguments that survived the motion to dismiss stage under the
relaxed state-law pleading standard. See Toledo II, 143 Haw. at
265, 428 P.3d at 777 (noting that “it does not appear beyond doubt
that Homeowner could not prove a set of facts entitling her to relief ”).

App. 39
person not in possession but entitled to enforce the
Note.23 MLB has presented evidence that the Note and
Mortgage were conveyed and delivered, with the right
to enforce the terms of the original Note intact, from
prior owner Lehman Brothers to MLB, and the Mohrs
have provided no evidence to the contrary. The Mohrs’
concocted arguments for avoiding foreclosure while it
remains undisputed that they have not made any payments since 2004 are insufficient to preclude summary
judgment on MLB’s Counterclaim. Accordingly, to the
23

The evidence the Mohrs raised for the first time in their
supplemental briefing, ECF No. 143, likewise does not present
any material factual disputes. The Mohrs challenge MLB’s standing based on (1) an assignment recorded just before the instant
Motion was filed purporting to assign the loan from MLB to MCH
SUB I, LLC (“MCH”); (2) evidence that, in the course of the dissolution of MLB and winding up its affairs, MLB cancelled its authority to transact business in Hawai‘i; and (3) a loan-servicing
document MLB submitted with its Motion that the Mohrs suddenly contend is evidence of the loan’s zero balance. ECF No. 143
¶¶ 1-4, 10-11. First, the loan document still provides no proof of
payment and any disputes the Mohrs have with respect to MLB’s
specific balance or tax calculations can be taken up at a later time.
Second, as MLB explains in its response, the assignment from
MLB to MCH was subsequently rescinded, as was MLB’s apparently erroneously-filed cancellation of authority. ECF Nos. 146-2
(rescission of assignment) & 146-3 (correction of cancellation). Regardless, none of these facts impact the Court’s above analysis
and conclusion that MLB has standing as the party entitled to
enforce the Note. See McCarty v. GCP Mgmt., LLC, 495 F. App’x
836, 837 (9th Cir. Nov. 7, 2012) (explaining that entity without a
certificate of authority may still maintain a counterclaim if it does
not qualify as “transacting business” in the state (citing HRS
§§ 428-1008, 428-1003)). As explained throughout this Order,
MLB has established that it continues to possess the Lost Note
Affidavit and there is no genuine issue of material fact as to it
being the proper party to enforce the Note.

App. 40
extent that MLB seeks summary judgment on its
Counterclaim seeking a decree of foreclosure, the Motion is GRANTED.
II.

The Mohrs’ Remaining Claims are Dismissed

In their Opposition and at oral arguments, the
Mohrs cross-moved for summary judgment on the
claims in their Amended Complaint. See Opp. at 1. Because the Court has already held that MLB is entitled
to summary judgment on its Counterclaim, the Mohrs’
claims necessarily fail as well.
Counts I through III of the Amended Complaint
allege wrongful foreclosure, and seek a declaratory
judgment and to quiet title. Having held that MLB is
entitled to a decree of foreclosure as the “person entitled to enforce” the Note and Mortgage, the Mohrs’
claims for wrongful foreclosure, declaratory judgment,
and quiet title based on the same material facts also
fail.
Count IV of the Mohrs’ Amended Complaint must
also be dismissed pursuant to res judicata and the law
of the case doctrine. Count IV of the Mohrs’ Amended
Complaint asserts UDAP violations:
The acts and conduct of Defendant MLB Sub
I, LLC, its agents, predecessors, constitute an
unfair or deceptive trade practice in the conduct of their trade or commerce as either or
both mortgage lenders, mortgage servicers,
mortgage holders, or claimants, debt collectors, and/or finance companies.

App. 41
Am. Compl. ¶ 17. In its Prior MSJ Order addressing,
in part, MLB’s joinder motion, the Court unequivocally
granted summary judgment to MLB on the Mohrs’
UDAP claims. The Mohrs have offered no reason to
stray from its prior holding on this point. See Thomas
v. Bible, 983 F.2d 152, 154 (9th Cir. 1993) (“[A] court is
generally precluded from reconsidering an issue that
has already been decided by the same court, or a higher
court in the identical case.”); see also United States v.
Alexander, 106 F.3d 874, 876 (9th Cir. 1997) (discussing
circumstances where a court has discretion to depart
from law of the case). The Court thus declines to disturb its prior ruling that MLB is entitled to summary
judgment for the UDAP claim. That claim remains
barred by res judicata.
For these reasons, MLB’s Motion is GRANTED to
the extent that it seeks summary judgment on all four
counts of the Amended Complaint. To the extent that
the Mohrs seek summary judgment in their favor on
the claims in the Amended Complaint, such relief is
DENIED.
III. MLB is Entitled to a Decree of Foreclosure
Because MLB has met the four prongs necessary
for a decree of a foreclosure and shown that it has
standing to foreclose, and because the Mohrs have
failed to present any genuine issue of material fact, the
Court holds that summary judgment in MLB’s favor is

App. 42
appropriate.24 The Court hereby orders an interlocutory decree of foreclosure.25
In view of the ongoing COVID-19 pandemic, the
government shutdown and stay-at-home order, the
common-law duty to obtain the best price for the property as enunciated in Hungate v. Law Office of David
B. Rosen, 139 Haw, 394, 408, 391 P.2d 1, 15 (2017), and
the fact that the real estate market is inactive and
Hawai‘i has temporarily halted evictions, the Court
24

The Court notes that it has considered the requirement in
HRS § 490:3-309(b) that judgment not be entered in favor of MLB
unless the Court finds that the Mohrs are “adequately protected
against loss that might occur by reason of a claim by another person to enforce the instrument.” The Mohrs have not offered any
alternative party who may stake a claim in ownership of the Note
and Mortgage, and the Court does not see any danger of double
enforcement of the security interest. At the hearing, MLB’s counsel also represented and agreed that the foreclosure would be conditioned on MLB’s agreement to indemnify the Mohrs in the event
they are faced with enforcement of the same promissory Note by
another party.
25
At the hearing, counsel for MLB indicated that MLB was
not seeking a deficiency judgment, even in the event the sale of
the property is less than the outstanding loan balance. Further,
at the Court’s request, MLB submitted proof of its calculation of
the outstanding amount of the loan balance. See Decl. of S. Lisby,
ECF No. 142-1. According to MLB, the outstanding principal balance is $466,737.39, and the interest at the adjustable rate
through January 31, 2020, is $600,294.34. Id. ¶ 4. The Court
hereby reserves the question of the exact amount (including interest) of the indebtedness secured by the Mortgage until after
the confirmation of the sale. See United States v. Guerette, Civ.
No. 09-00133-ACK-KSC, 2010 WL 3260191, at *6, 10 (D. Haw.
Aug. 13, 2010) (reserving the question of the exact amount owed
until after the confirmation of sale) (citing Anderson, 3 Haw. App.
at 550, 654 P.2d at 1375).

App. 43
finds that it would be inequitable and not in the interest of either party to proceed with the foreclosure sale
under the existing conditions. The Court thus finds
and so orders that the Commissioner may not commence any actions to foreclose on the Mohrs’ property
until further ordered by this Court. Either party may
petition the Court to authorize proceeding with the
sale when it appears that the foregoing conditions
have ended and the real estate market is once again
active; and the other party will have an opportunity to
respond.
It is hereby ORDERED, ADJUDGED, and DECREED for the reasons stated herein that:
1. MLB’s Motion for summary judgment, ECF
No. 128, is hereby GRANTED.
2. The Mohrs are in default under the terms of
the Note and Mortgage, which are currently held by
MLB.
3. The Mortgage currently held by MLB shall be
and is hereby foreclosed as prayed, and the property
described in Exhibit 2 to MLB’s Concise Statement of
Facts shall be sold at public auction or by private sale,
without an upset price. Such sale of the subject property shall not be final until approved and confirmed by
the Court. The Court hereby reserves the question of
the exact amount (including interest) of the indebtedness secured by the Mortgage.
4. The Commissioner as appointed herein by the
Court shall sell the property within four (4) months

App. 44
after the Commissioner is notified of a separate and
forthcoming order issued by this Court in which the
Court recognizes that the COVID-19 threat has passed
and that the foreclosure sale may commence. The Commissioner shall hold all proceeds of the sale of the property in an interest-bearing account to the credit of this
cause subject to the directions of this Court. Upon payment according to such directions, the Commissioner
shall file an accurate accounting of the Commissioner’s
receipts and expenses.
5. Carol Monahan Jung, Esq. of Jung & Vassar
PC is hereby appointed by this Court as Commissioner,
and as Commissioner she shall henceforth sell the
property at foreclosure sale to the highest bidder at the
Commissioner’s sale by public auction or by private
sale, without an upset price, after first giving notice of
such sale by publication in at least one newspaper regularly issued and of general circulation in the District
of Hawai‘i. Said notice shall be published once a week
for at least three (3) consecutive weeks, with the auction to take place no sooner than fourteen (14) days after the appearance of the third advertisement. Said
notice shall give the date, time, and place of the sale
and an intelligible description of the property, including any improvements, and shall follow the format described in HRS § 667-20. The Commissioner shall have
further authority to continue the sale from time to
time at the Commissioner’s discretion. Any change in
the time, place, or terms specified in the original notice
of sale requires that MLB ensure that the Commissioner publishes a new notice of postponed sale with

App. 45
the new terms, and such notice shall follow the format
described in HRS § 667-20.1. The public sale shall take
place no sooner than fourteen (14) days after the date
of the notice of postponed sale, and not less than fourteen (14) days before the rescheduled date a copy of the
new notice of postponed sale shall be posted on the
mortgaged property and delivered to the Mohrs, MLB,
and any other person entitled to receive such notifications.
6. No bond shall be required of the Commissioner.
7. In the event that the Commissioner refuses, or
becomes unable, to carry out her duties set forth
herein, the Court shall appoint another without further notice of hearing.
8. The Commissioner shall sell the subject property by foreclosure sale in its “AS IS” condition, without
any representations or warranties whatsoever as to title, possession, or condition.
9. The Commissioner and all persons occupying
the subject property shall allow reasonable access to
view the subject property, a minimum of two separate
days prior to the sale of the subject property, by means
of an open house or other reasonable means.
10. The fee of the Commissioner shall be such as
the Court deems just and reasonable, together with actual and necessary expenses incurred with the sale of
the subject property.

App. 46
11. The sale so made and confirmed shall perpetually bar the Mohrs and all persons and parties claiming by, through or under the Mohrs, except
governmental authorities enforcing liens for unpaid
real property taxes, from any and all right, title and
interest in the subject property or any part thereof.
12. MLB is hereby authorized to purchase the
subject property at the foreclosure sale. The successful
bidder at the foreclosure sale shall be required at the
time of such sale to make a down payment to the Commissioner in an amount not less than ten percent
(10%) of the highest successful price bid, such payment
to be in cash, certified check or cashier’s check, provided that should MLB be the high bidder, it may satisfy the down payment by way of offset up to the
amount of its secured debts. The balance of the purchase price must be paid in full at the closing of the
sale, which shall take place 35 days after entry of the
order confirming the sale. If the bidder fails to fulfill
this requirement, the deposit shall be forfeited and applied to cover the cost of sale, including the Commissioner’s fee, with distribution of any amount remaining
to be determined by the Court. Such payment is to be
in cash, certified check, or cashier’s check, provided
that, should MLB be the high bidder at the confirmation of sale, it may satisfy the balance of the purchase
price by way of offset up to the amount of its secured
debts, as discussed above, as appropriate. Costs of conveyancing, including preparation of the conveyance
document, conveyance tax, securing possession of such
mortgage property, escrow services, and recording of

App. 47
such conveyance, shall be at the expense of such purchaser.
13. Pending the sale of the mortgaged property,
the Mohrs shall take all reasonable steps necessary to
preserve the real property (including all buildings, improvements, fixtures, and appurtenances on the property) in its current condition. The Mohrs shall not
commit waste against the property, nor shall they
cause or permit anyone else to do so. The Mohrs shall
not do anything that tends to reduce the value or marketability of the property, nor shall they cause or permit anyone else to do so. The Mohrs shall not record
any instruments, publish any notice, or take any other
action (such as running newspaper advertisements or
posting signs) that may directly or indirectly tend to
adversely affect the value of the property or that may
tend to deter or discourage potential bidders from participating in the public auction or private sale, nor
shall they cause or permit anyone else to do so.
14. All persons occupying the mortgaged property shall leave and vacate the property permanently
within sixty (60) days of the date of the Court’s order
finding that the COVID-19 threat has passed and the
foreclosure may commence, each person taking with
them their personal property (but leaving all improvements, buildings, and appurtenances to the property).
If any person fails or refuses to leave and vacate the
property by the time specified in this Decree, the Commissioner is authorized and directed to take all actions
that are reasonably necessary to bring about the ejectment of those persons, including obtaining a judgment

App. 48
for possession and a writ of possession. If any person
fails or refuses to remove his or her personal property
from the premises by the time specified herein, any
personal property remaining on the property thereafter is deemed forfeited and abandoned, and the Commissioner is authorized to remove it and dispose of it
in any manner the Commissioner sees fit, including
sale, in which case the proceeds of the sale are to be
applied first to the expenses of sale and the balance to
be paid into the Court for further distribution.
15. The sale can be supplemented with the practices and procedures in the State of Hawai‘i and Section 667 of the Hawai‘i Revised Statutes.
16. The Court reserves jurisdiction to determine
the party or parties to whom any surplus shall be
awarded herein.
CONCLUSION
For the foregoing reasons, the Court GRANTS
MLB’s Motion for Summary Judgment, ECF No. 128,
and DENIES the Mohrs’ counter-motion for summary
judgment, ECF No. 136. Accordingly, MLB is entitled
to, and the Court hereby issues, a decree of foreclosure
on the subject property as outlined above.26
IT IS SO ORDERED.
26

On April 8, 2020, the Mohrs filed a motion to continue the
trial date and pretrial deadlines, ECF No. 147, which MLB does
not oppose, ECF No. 148. In view of this Order and Decree, that
motion is denied as moot.

App. 49
DATED: Honolulu, Hawai‘i, April 13, 2020.
[SEAL]

/s/ Alan C. Kay
Alan C. Kay
Sr. United States District Judge

App. 50
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII

SANFORD A. MOHR and
TINA A. MOHR, Individually
and as Co-Trustees of their
October 15, 1996 unrecorded
revocable trust,
Plaintiff(s),

JUDGMENT IN
A CIVIL CASE
Case: CIVIL NO.
16-00493 ACK-WRP
(Filed Apr. 13, 2020)

vs.
MLB SUB I, LLC; JOHN
DOES 1-20; JANE DOES
1-20; DOE PARTNERSHIPS
1-20; DOE CORPORATIONS
1-20; and DOE ENTITIES
1-20,
Defendant(s).
[ ] Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.
[✓] Decision by Court. This action came for hearing
before the Court. The issues have been heard and
a decision has been rendered.
On April 13, 2020, the Court issued its Order,
ECF 150: “ORDER GRANTING DEFENDANT
MLB SUB I’S MOTION FOR SUMMARY JUDGMENT AND ISSUING DECREE OF FORECLOSURE” (“April 13, 2020 Order),
IT IS ORDERED AND ADJUDGED that
Summary Judgment is granted as to Defendant
MLB SUB I, LLC and a Decree of Foreclosure is

App. 51
hereby issued pursuant to and in accordance with
the April 13, 2020 Order.
April 13, 2020
Date

SUE BEITIA
Clerk
[SEAL]
/s/ Sue Beitia by J.I.
(By) Deputy Clerk

App. 52
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SANFORD A. MOHR; TINA
A. MOHR, Individually and
as Co-Trustees of their
October 15, 1996 unrecorded
Revocable Trust,

No. 20-15895
D.C. No.
1:16-cv-00493-ACK-WRP
District of Hawaii,
Honolulu

Plaintiffs-Appellants, ORDER
v.

(Filed Aug. 12, 2021)

MLB, SUB I, LLC; et al.,
Defendants-Appellees.
Before: NGUYEN, OWENS, and FRIEDLAND, Circuit
Judges.
The panel has voted to deny Appellants’ petition
for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on it.
Appellants’ petition for rehearing en banc is DENIED.

App. 53
RELEVANT STATUTES
Hawai’i Revised Statute § 428-1003
Activities not constituting transacting business
(a) The activities of a foreign limited liability company that do not constitute transacting business
in this State within the meaning of this part include:
(1) Maintaining, defending, or settling an action
or proceeding;
(2) Holding meetings of its members or managers
or carrying on any other activity concerning
its internal affairs;
(3) Maintaining bank accounts;
(4) Maintaining offices or agencies for the transfer, exchange, and registration of the foreign
limited liability company’s own securities or
maintaining trustees or depositories with respect to those securities;
(5) Selling through independent contractors;
(6) Soliciting or obtaining orders, whether by
mail or through employees or agents or otherwise, if the orders require acceptance outside
this State before they become contracts;
(7) Creating or acquiring indebtedness, mortgages, or security interests in real or personal
property;
(8) Securing or collecting debts or enforcing mortgages or other security interests in property

App. 54
securing the debts, and holding, protecting,
and maintaining property so acquired;
(9) Conducting an isolated transaction that is
completed within thirty days and is not one in
the course of similar transactions of a like
manner; or
(10) Transacting business in interstate commerce.
(b) For purposes of this part, the ownership in this State
of income-producing real property or tangible personal property, other than property excluded under
subsection (a), constitutes transacting business in
this State.
(c) This section does not apply in determining the
contacts or activities that may subject a foreign
limited liability company to service of process, taxation, or regulation under any other law of this
State.

Hawai’i Revised Statute § 428-1008
Effect of failure to obtain certificate of authority
(a) A foreign limited liability company transacting
business in this State may not maintain an action or
proceeding in this State unless it has a certificate of
authority to transact business in this State.
(b) The failure of a foreign limited liability company
to have a certificate of authority to transact business
in this State does not impair the validity of a contract
or act of the company or prevent the foreign limited

App. 55
liability company from defending an action or proceeding in this State.
(c) Limitations on the personal liability of managers,
members, and their transferees are not waived solely
by transacting business in this State without a certificate of authority.
(d) If a foreign limited liability company transacts
business in this State without a certificate of authority,
service of process may be made upon the company as
set forth in section 428-110(b) at any address used by
the company as its address for purposes of its business
transactions.
(e) A foreign limited liability company which transacts business in this State without a certificate of authority, shall be liable to the State in an amount equal
to all fees and penalties which would have been imposed by this chapter upon that foreign limited liability company had it obtained such a certificate and filed
all records and reports required by this chapter. The
attorney general may bring proceedings to recover all
amounts due this State under the provisions of this
section.

Hawai’i Revised Statute § 490:3-309
Enforcement of lost, destroyed, or stolen instrument
(a) A person not in possession of an instrument is entitled to enforce the instrument if (i) the person was in
rightful possession of the instrument and entitled to

App. 56
enforce it when loss of possession occurred, (ii) the loss
of possession was not the result of a transfer by the
person or a lawful seizure, and (iii) the person cannot
reasonably obtain possession of the instrument because the instrument was destroyed, its whereabouts
cannot be determined, or it is in the wrongful possession of an unknown person or a person that cannot be
found or is not amenable to service of process.
(b) A person seeking enforcement of an instrument
under subsection (a) must prove the terms of the instrument and the person’s right to enforce the instrument. If that proof is made, section 490:3-308 applies
to the case as if the person seeking enforcement had
produced the instrument. The court may not enter
judgment in favor of the person seeking enforcement
unless it finds that the person required to pay the instrument is adequately protected against loss that
might occur by reason of a claim by another person to
enforce the instrument. Adequate protection may be
provided by any reasonable means.

App. 57
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
SANFORD A. MOHR and
TINA A. MOHR, Individually
and as Co-Trustees of their
October 15, 1996 unrecorded
Revocable Trust,
Plaintiffs-Appellants,
vs.
MLB, SUB I, LLC; et al.,
Defendants-Appellees.

No. 20-15895
D.C. No.1: 16-cv-00493ACK-WRP
U.S. District Court
for Hawaii, Honolulu
PLAINTIFFSAPPELLANTS’
PETITION FOR
REHEARING EN BANC
(Filed Jul. 15, 2021)

2021-July 15-1 Appellants’
petition en banc
R. STEVEN GESHELL, #3349
345 Queen Street, Suite 709
Honolulu, HI 96813
Tel. No. 808.396.7701
Fax No. 808.395.8556
E-Mail: geshlawAlava.net
Attorney for Plaintiffs-Appellants
SANFORD A. MOHR and TINA A. MOHR,
Individually and as Co-Trustees of their
October 15, 1996 unrecorded Revocable Trust
PLAINTIFFS-APPELLANTS’
PETITION FOR REHEARING EN BANC
Come now Plaintiffs-Appellants, hereafter Mohrs,
and pursuant to Rule 35 of the Federal Rules of

App. 58
Appellate Procedure (FRAP) and petition this Honorable Court for rehearing en banc of this appeal of
the Panel’s 9 July 2021 memorandum decision, a copy
of which is appended, being Document #33-1 in the
Court’s electronic file.
INTRODUCTION
In the undersigned counsel’s judgment this case involves one or more questions of exceptional importance
or consideration by the full Court is necessary to secure or maintain uniformity of the Court’s decisions in
mortgage foreclosure actions involving homeowner’s
claims for quiet title, wrongful foreclosure, unfair and
deceptive trade practices under Hawaii law, as listed
herein below.
REASONS WHY THIS
PETITION SHOULD BE GRANTED
1.

The Courts’ decisions deprive Mohrs of due process and equal protection of the laws in violation
of U.S. Constitution.

2.

BNC did not merge with Finance America, it was
just the reverse in 2005 and then later, Finance
America ceased to exist in 2007 per Paatalo’s Declaration in ECF 86-1. Therefore MERS agency
died in 2007 making its purported mortgage assignments void. This makes the further purported
mortgage assignments to and by Lehman Brothers void too.

App. 59
3.

The Courts’ discussion on pages 4-6 of ECF 150
and in Dkt Entry 331 at pages 2-5 about the lost
promissory note missed the point that if the note
was at some point possessed or owned by American Home Mortgage or Servicing, that entity and
series of related entities filed for Chapter 11 protection on 6 August 2007 in Delaware Bankruptcy
Court. Thus, there is no evidence by MLB Sub I,
LLC (hereafter as MLB) that the court-appointed
Plan Trustee assigned or endorsed the lost note
thereby creating more genuine issues of material
fact requiring MLB’s motion for summary judgment to be denied.

4.

The same reasoning applies to the purported
mortgage assignments by or thru Lehman Brothers Holdings, Inc., etc. as it was in Chapter 11
Bankruptcy too since 2008 and continuing in 2014.
Thus there is no proper evidence that April Smith
was authorized to sign for the bankrupt Lehman
Holdings in 2014 nor was it approved by the bankruptcy court trustee, if one existed.

5.

The decisions disregarded Mohrs’ evidence of forgery making the disputed documents void per Palau v. Helemano Land Co., 22 Haw. 357 (Haw. Terr.
1914).

6.

The decisions disregarded Mohrs’ proof that the
mortgage documents claimed by MLB were altered.

7.

The decision disregarded Mohrs’ proof that MLB’s
claims are based on fraud so therefore the Court
should not reward that but punish it.

App. 60
8.

The decision that Mohrs are precluded by res judicata from raising these issues here because of the
Lehman Brothers bankruptcy is wrong because
the bankruptcy court lacked subject matter jurisdiction to decide a quiet title claim on land in
Hawaii. When a court lacks subject matter jurisdiction, any decision by that court is void. Amantiad v. Odum, 90 Haw. 152, 159, 977 P.2d 160,167
(1999).

9.

The 13 April 2020 order, decree and judgment violate Bank of America v. Reyes-Toledo, 139 Haw.
361, 360 P.3d 1248 (2017) (“Toledo I”) and Bank of
America v. Reyes-Toledo, 143 Haw. 249, 428 P.3d
761 (2018) (“Toledo II”) as Mohrs proved they have
valid claims against MLB.

10. MLB’s proof failed to comply with U.S. Bank v.
Mattos, 140 Haw. 26, 398 P.3d 615 (2017). MLB
failed to prove that it is the current trustee of the
REMIC Trust identified ECF # 135 & 136 by
Mohrs and in MLB’s motion for summary judgment where MLB’s counterclaim does not allege
nor did MLB prove that it is suing in a representative capacity as the current trustee of an
existing REMIC trust Mohrs identified as being
the FAMLT 2004-2. Therefore, MLB lacks standing to counterclaim for mortgage foreclosure.
11. The decisions dismissing Mohrs’ argument that
the MERS agency died when Finance America,
LLC ceased to exist when it merged into BNC
Mortgage, Inc. and was dissolved in 2007 are contrary to the law and the evidence because any purported mortgage assignments by MERS after its
dissolution are void.

App. 61
12. Mohrs’ supplemental memorandum filed 16
March 2020 in ECF # 143 proved that MLB ceased
to exist on 30 December 2019 so lacks standing
proving the judges’ decisions violated Toledo I and
II, failing to apply and follow Hawaii law.
13. The judges erroneously held MLB had standing to
counterclaim seeking foreclosure when it failed to
prove it was the owner of Mohrs’ note and mortgage that Mohrs proved were paid in 2006 and
transferred into the FAMLT 2004-2 on 6 August
2004 and the MLB is not the current trustee of
said trust.
The following lists what Mohrs contend were the pertinent and relevant facts opposing MLB’s Motion for
Summary Judgment in 2 ER @135:
No. Petitioners Mohrs’ Facts Evidence Source
1 Mohrs as co-trustees of their Mohrs’ Decl. ¶1-5
revocable trust own the subject
land in Kailua-Kona, Hawaii
2 Mohrs are consumers with
respect to the mortgage and
note involved in this case.

Mohrs’s Decl. ¶ 5

3 The mortgage document
Mohrs signed before recording is shown in Exhibit A
to their declarations.

Ex. A to Mohrs’
Decl. and ¶ 8

4 The mortgage document
Mohrs signed was altered
before it was recorded.

Mohrs’ Decl. ¶ 8-9
& Exh. A to their
Decl.

App. 62
No. Petitioners Mohrs’ Facts

Evidence Source

5 The contested Mohr mortgage Paatalo’s Decl. pgs.
and note were securitized into 4-15 & attached
the FAMLT 2004-2 Trust in his exhibits 8 & 9
2004 and paid by 31 May 2006. to Decl.
6 MERS’ agency for Finance
America, LLC expired in
February 2007, when it was
dissolved in California.

Ex. 8 to Paatalo’s
Decl. & pages 7-15
of his Decl.; Mohrs’
Decl. ¶ 12-13.

7 Mohrs’ promissory note was
paid in May 2006.

Mohrs’ Decl. ¶21 &
Paatalo’s Decl. Pg
4 & his Exh. 8 & 9.

8 MLB’s conduct amounts to
an unfair trade practice so
it is liable to Mohrs for over
$633,000 plus attorney fees
and costs.

Mohrs’ Decl. ¶18-22

9 MLB never paid any money Mohrs’ Decl. ¶ 23
to Mohrs so not entitled to
any equitable lien nor remedy.
10 MLB’s claimed ownership of Mohrs’ Decl. ¶27-41
Mohrs’ mortgage and note is
based on fraudulent and void
mortgage assignments.
Mohrs’ arguments in the trial court and on appeal are
summarized below:
a.

The purported assignment by Lehman Brothers,
Inc. by MLB Sub I, LLC as attorney-in-fact to MLB
recorded March 25, 2014 is void.

App. 63
b.

The purported assignment by MERS to Lehman
Brothers Holdings, Inc., recorded April 22, 2014 is
likewise void because MERS was just a recording
system in an electronic database and was nothing
more than a fraud and a strawman as a fraud on
the public. MERS was not the mortgagee when the
mortgage was sold and transferred to FAMLT
2004-2 in 2004.

c.

The purported assignment by Lehman Brothers
Holdings, Inc. by MLB Sub I LLC as attorney in
fact, recorded April 25, 2014, is likewise void, because MERS agency died when Finance America,
LLC ceased to exist when it merged into BNC
Mortgage, Inc. and further when it was dissolved
in 2007.

d.

Lehman Brothers Holdings, Inc. filed for bankruptcy thereby ending the purported agency for
Finance America, LLC on or about September 15,
2008, thereby rendering any purported transfers by
Lehman Brothers Holdings, Inc. thereafter void.

e.

On or about December 2, 2008 BNC Mortgage
Inc., purported successor by merger with Finance
America, LLC released the mortgage involved in
this case and therefore it has been released of record and paid. Upon merger of Finance America
LLC into BNC Mortgage, Inc. as successor automatically as a matter of law caused Finance
America, LLC to cease to exist and it disappeared
thereafter upon the merger per California Corporation Code §1107, and Finance America, LLC was
dissolved in 2007.

Mohrs proved the affirmative defense that MLB cannot prove compliance with Hawaii cases, in particular

App. 64
Toledo I and is therefore subject to liability to Mohrs’
amended complaint under Toledo II.
Contrary to the judges’ decisions, Mohrs proved the following facts by competent evidence at least creating
genuine issues of material fact involving credibility determination thus requiring MLB’s summary judgment
to be denied per Anderson v. Liberty Lobby, Inc. 477
U.S. 242, 255, 106 S.Ct. 2505, 2513 (1986); and His and
Her Corp. v. Shake-N-Go Fashion, Inc., 572 Fed. Appx.
517 (9th Cir. 2014):
1. The defense that the notary public on the mortgage claimed by MLB is a fraud and void as the notary
public goes by 2 different names and did not personally
take Mohrs’ acknowledgment.
2. MLB’s Exhibit 3 purported mortgage assignment
is void because Finance America, LLC ceased to exist
and was dissolved in California in 2007, therefore the
purported mortgage assignment contained in Exhibit
3 is void, phony, and may be a forgery making it void
per Palau v. Helemano Land Co., 22 Haw. 357 (Haw.
Terr. 1914).
3. MLB’s Exhibit 4 purported mortgage assignment
is void as Lehman Brothers was not the assignee of the
mortgage in 2014 and no documents are attached to
the counterclaim proving how Lehman Brothers Holding, Inc. owned the mortgage in 2014 when it was still
in Chapter 11 bankruptcy proceedings. In addition,
there is no showing that April Smith was authorized to
sign Exhibit 4 on behalf of Lehman Brothers Holdings,
Inc. in April of 2014, almost 6 years after Lehman

App. 65
Brothers Holdings, Inc. filed for Bankruptcy protection.
4. The defense that MLB did not invest in the mortgage loan so is not entitled to any equitable lien nor
constructive mortgage nor declaratory relief.
5. The defense of MLB’s assumption of risk and contributory negligence based on the facts opposing MLB’s
motion for summary judgment.
6. The defense of fraud, in that Mohrs proved that
MLB is not the real party-in-interest per FRCP Rule
17 and owner of both the note and mortgage through
any claimed valid assignments to and/or through
MERS and Lehman Brothers Holding, Inc., so not entitled to a foreclosure decree.
7. The defense of illegality, in that MLB is trying to
foreclose a mortgage and note which it does not own.
8. The defenses that there are no valid interim assignments of the mortgage to MLB nor any valid negotiation for value to MLB of the Mohrs’ promissory note
that was lost before MLB got the lost note affidavit.
9. The defense that MLB is not a holder in due course
of Mohrs’ promissory note.
The Declaration of private investigator, William J.
Paatalo, appears in 2 ER 135-3 @ pages 1-32, (Volume
2 of the excerpt of record @ pages cited) which is not
simply his report per the Panel’s opinion but his testimony per his declaration supported by documents
summarized as follows:

App. 66
1.

He is an Oregon licensed private investigator with
17 years of combined law enforcement and mortgage industry experience, having worked for eight
years investigating foreclosure fraud, titles and issues related to securitization of such mortgage
loans. He has performed such analyses in all of the
Western states and including the states of Florida,
Ohio, Montana, New Jersey and Illinois. He testified at trial as an expert witness on August 6, 2018
in the California Superior Court in San Diego.

2.

He has been deemed qualified by courts concerning his knowledge of the Pooling and Servicing
Agreements and various Securities and Exchange
Commission filings, and all chain of title analysis
concerning publicly recorded documents.

3.

He was retained by Mohrs to learn what defects, if
any, and discrepancies or fraud existed regarding
the mortgage involved in their case. He looked into
the Pooling and Servicing Agreement for Finance
America Mortgage Loan Trust 2004-2, and in doing so he found that the original lender, Finance
America, LLC, sold the Mohrs loan/debt to undisclosed securitization participants on or about August 6, 2004 concerning the Finance American
Loan Trust 2004-2 Trust.

4.

He determined that the subject loan of about
$457,732 was paid off within that Trust (FAMLT
2004-2 Trust) on May 31, 2006. He further learned
that fraudulent assignments of the subject mortgage were recorded after the mortgage lien was released in an effort to hide and conceal the sale and
pay off of the mortgage loan/debt to the FAMLT
2004-2 Trust.

App. 67
5.

In determining the foregoing, he ran a securitization check of the subject loan and determined that
it was paid off within the Trust because the data
showing in the securitization research showed
that the current balance owed the investors was
$0.00 in the FAMLT 2004-2 Trust.

6.

The cut off date for transferring loans into that
Trust was August 1, 2004 and the closing date was
August 6, 2004. His research also proved that the
Trustee of that Trust is Deutsche Bank National
Trust Co. His research further shows that the assignor of the assignment recorded April 25, 2014
to MLB Sub I, LLC, a Delaware limited liability
company, was dated September 9, 2013. He further
proved that the first assignment of the mortgage
of record was on March 25, 2014 in which the assignor was Lehman Brothers Holdings by MLB
Sub I, LLC, a Delaware limited liability company,
by its attorney in fact, assigning the mortgage to
MLB Sub I, LLC. His research proves that the second assignment was recorded April 22, 2014 in
which Mortgage Electronic Registration Systems,
Inc. was the assignor and Lehman Brothers Holdings, Inc. was the assignee. The third mortgage assignment was recorded April 25, 2014 in which
Lehman Brothers Holdings, Inc. was the assignor,
executed by MLB Sub I, LLC, a Delaware Limited
Liability Company, by virtue of a power of attorney, and the assignee was to itself, MLB Sub I,
LLC. In his opinion all such assignments are
fraudulent because of the following.

7.

From his experience and knowledge in reviewing
thousands of security instruments with MERS ID
numbers, MERS is deactivated in the chain of

App. 68
ownership after the mortgages are sold into
Trusts. In this case, Lehman Brothers Holdings,
Inc. filed for bankruptcy on September 15, 2008,
and therefore its relationship with MERS ended
and in particular did so also upon the sale and
transfer of the Mohr loan into FAMLT 2004-2
Trust on or about August 6, 2004. Therefore, the
purported listed mortgage assignments are fraudulent.
On 16 March 2020, Mohrs’ supplemental memorandum opposing the declarations of Mr. Kikawa and
Ms. Lisby has Tina Mohr’s declaration, [2 ER @ 143],
proves the following undisputed facts:
A. She had never seen the document that MLB
claimed it sent to Mohrs on 9 January 2020, being
Exhibit 17, but that document proves that Mohrs
were told to make the checks payable to MCH Sub
I LLC and to remit the payments to MCH Sub I.
[not MLB]
B.

She ran an internet Google search on MCH Sub I
LLC, and learned that it was a Delaware corporation in which April Smith was listed as a manager,
and that it was incorporated about 3 months before March of 2020, on or about January of 2020.

C.

She bought a certified copy of the authority in Hawaii for MCH Sub I LLC as a foreign limited liability company to do business in the state of
Hawaii, in which April Smith was listed as a manager.

D. She found in the Hawaii Bureau of Conveyances a
document proving that the Mohr purported mortgage was purportedly assigned from MLB Sub I

App. 69
LLC to MCH Sub I LLC, notarized on 15 December 2019 and recorded in the Bureau of Conveyances on 16 January 2020 per Exhibit C to her
declaration.
E. She discovered from the Department of Commerce
and Consumer Affairs in Hawaii that on 25 November 2019, MLB’s last annual filing for registration to transact business in Hawaii was filed
per Exhibit D to her declaration. On 6 September
2019, MLB applied to cancel its Hawaii registration effective on 9 December 2019, which certificate of cancellation was signed by the Vice
President of MLB, being April Smith, all of which
is further shown in Exhibit E attached to her declaration.
F.

She proved that based upon her research from the
Delaware Secretary of State that MLB ceased to
exist as a Delaware corporation on 30 December
2019, which was 21 days before MLB filed its motion for summary judgment, all as proved by Exhibit F to her Declaration.

G. She also proved that April Smith was purportedly
the Vice President of Lehman Brothers Holding,
Inc. in April of 2014. [2 ER @ 143].

App. 70
ARGUMENT
The trial court and the Panel, by refusing
to follow Hawaii case and statutory law, the
U.S. Supreme Court and 9th Circuit cases
in deciding the cross motions for summary
judgment, denied Mohrs their Constitutional rights to due process and equal protection.
Constitutional issues are reviewed on appeal de novo.
Portland Feminist Women’s Health Center v. Advocates
for Life, Inc., 859 F.2d 681, 684 (9th Cir. 1988). Accord
Rosenbaum v. City and County of San Francisco, 484
F.3d 1142, 1152 (9th Cir. 2007).
District Court’s decisions in granting summary judgment are reviewed on appeal de novo. Florer v. Congregation Pidyon Shevuyim, NA, 639 F.3d 916, 921 (9th
Cir. 2011). Accord Oswalt v. Resolute Industries, Inc.,
642 F.3d 856, 859 (9th Cir. 2011).
Mohrs’ rights to due process are guaranteed to them
by the Fourteenth Amendment to the United States
Constitution, and Article I, Section 5 of the Hawaii
Constitution. Those constitutional provisions prohibit
courts from depriving persons of their life, liberty, or
property without due process of law. Romero vs. Star
Markets, Ltd., 82 Haw. 405, 412, 922 P.2d 1018, 1025
(1996). Where a court acts in a manner inconsistent
with due process, the judgment that follows is void. In
re Genesys Data Technologies, Inc., 95 Haw. 33, 38, 18
P.3d 895, 900 (2001).

App. 71
Also of constitutional import are the equal protection
provisions of the Fourteenth Amendment to the United
States Constitution and Article I, Section 5 of the Hawaii Constitution prohibiting courts from depriving litigants of their equal protection of the laws. Brescia vs.
North Shore Ohana, 115 Haw. 477, 501-503, 168 P.3d
929, 953-955 (2007); Aloha Care vs. D.H.S., 127 Haw.
76, 88-90, 276 P.3d 645, 657-659 (2012). By granting
summary judgment to MLB, the District Court violated Mohrs’ constitutional rights to due process and
equal protection by denying their property, possession,
and ownership interests. KNG Corp. vs. Kim, 107 Haw.
73, 80-83, 110 P.3d 397, 404-407 (2005). The strict-scrutiny test applies here under the equal protection clause
argument. Nakano vs. Matayoshi, 68 Haw. 140, 151152, 706 P.2d 814, 821 (1985); Baehr vs. Lewin, 74 Haw.
530, 570-575, 852 P.2d 44, 63-65 (1993).
With all due respect to the judges, they relied upon
cases from other jurisdictions rather than Hawaii in
reaching the conclusion that MLB was entitled to foreclose on a mortgage that it in fact did not own and a
lost promissory note that MLB never possessed. In doing so, Judge Kay and the Panel violated the case of
Motschenbacher v. R.J. Reynolds Tobacco Co., 498 F.2d
821, 823 (9th Cir., 1974) for the simple reason that the
trial court and this Court are obligated to apply Hawaii
law in this case, not federal law, in this removed foreclosure case per 28 USC § 1332 and 1441. Here, Judge
Kay and the Panel relied upon In re Allen, 472 B. R.
559 (9th Cir. BAP 2012) on the lost note issue when
Mohrs proved that the note had been paid because it

App. 72
was in a REMIC trust and not owned by nor possessed
by MLB. Also, MLB proved it did not possess the
note when it was lost. Therefore, HRS § 490:3-309(a
&b) did not apply to assist MLB in its claimed proof
of complying with Toledo I, but proved Mohrs’ complaint per Toledo II. A REMIC is defined as a Real Estate Mortgage Investment Conduit per Beverly v. Bank
of New York Mellon, 751 Fed. Appx. 1011, 1012 (9th Cir.
2018). Therefore, according to the Beverly case, the
standard of review in this case is de novo where the
trial judge decides that res judicata bars Mohrs’
claims. Id. @1013. Here, Mohrs proved that the mortgage was in a REMIC Trust and clearly MLB failed to
prove that it was the current trustee of that REMIC
Trust and whether it and the REMIC Trust still existed. Instead, Mohrs proved that the promissory note
and the mortgage had been paid in that Trust when it
was securitized into the REMIC Trust in 2006. Therefore, MLB could not be a holder of Mohrs’ paid promissory note per HRS § 490:3-309(a) and (b) because
MLB was not ever in possession of Mohrs’ promissory note since it was lost before it had the lost note
affidavit per its own evidence. MLB claimed it acquired
the lost note affidavit on 17 April 2014 per Doc.# 12815 and 128-23 & 24; also per Doc. # 129 @ pages 3-4,
all in 2 ER. The Allen case is not based on Hawaii law
because the statute is no help to MLB. The record
proves that MLB supposedly bought the note and
mortgage from Lehman Bros. in September of 2013. [1
ER 150 @ 22]. So MLB never possessed the original note, only a copy and the affidavit of the lost
note. Also, it is clear that MERS claimed to sell and

App. 73
assign the mortgage and the note to Lehman Brothers
after the date of the lost note affidavit. Therefore,
clearly Allen does not apply to support Judge Kay’s and
the Panel’s decision. Instead, Judge Kay erroneously
decided that the Mohrs were not disputing the Lost
Note Affidavit but reasoned that the Mohrs’ evidence
of the Note being paid in 2006 was not persuasive. In
doing so, that violated the standard of review on summary judgment motions. Anderson, supra. & His and
Her Corp. supra. That was clearly erroneous and generated at least genuine issues of material fact created
by Paatalo’s Declaration per footnotes 16 & 17 at 1 ER
150 @ p. 25. In re Weisband, 427 B.R. 13 (Bankr. D.
Ariz. 2010) held GMAC lacked standing as it was not a
holder of the note. Judge Kay cited Weisband, but misapplied it. What’s even worse is Judge Kay forgot or
intentionally omitted to discuss Wells Fargo Bank v.
Behrendt, 142 Haw. 37, 414 P.3d, 89 (2018) which held
that a purchaser of the property subject to a mortgage
to which the buyer was not a party had standing to
challenge the foreclosing bank’s entitlement to enforce
the promissory note. If a buyer of the subject property
has standing to challenge the validity of the note and
the entitlement to enforce it, clearly Mohrs had such
standing because they were seeking to quiet title as
against the claimed mortgagee, MLB, when Mohrs
proved that MLB didn’t even exist any more. The
Panel failed to apply Toledo I, supra., holding that the
claimed mortgage and note holder had the burden of
proving that it had standing at the start of the case
to sue for foreclosure, and Toledo II, supra., holding
that homeowners in foreclosure actions have four

App. 74
counterclaims that can be asserted concurrently against
foreclosure plaintiffs, to wit: wrongful foreclosure,
quiet title, declaratory judgment and a treble damage
claim under the Hawaii Unfair Deceptive Trade Practice Act (UDAP) in HRS §480-2 & 13 Mohrs’ Amended
Complaint pled the Toledo II claims, but the judges erroneously and reversibly decided Mohrs didn’t even
have standing to assert such claims. Clearly that is reversible error and of constitutional dimension.
Judge Kay’s reliance upon HRS § 428-1003 and 1008
for the reasoning that MLB still had standing because
it didn’t matter to him that it had been dissolved in
Delaware effective 9 December 2019, six days before
the purported mortgage assignment by MLB to MCH
Sub I, LLC, all as proven in Mohrs’ 16 March 2020 supplemental memorandum opposing the declarations of
attorney Kikawa and Lisby per 2 ER Doc No. 143. In
fact, Mohrs’ proved that April Smith was acting as Vice
President of MLB Sub I LLC in 2019 when it applied
to cancel the existence of MLB Sub I LLC, and she was
also supposedly the manager of MCH LLC on the purported assignment of the mortgage involved to MCH
Sub I LLC by the defunct MLB Sub I, LLC. Clearly, at
least those documents and proof by Mohrs in 2 ER @
143 generated at least genuine issues of material fact
requiring denial MLB’s summary judgment motion.
Judge Kay reversibly erred granting it and then dismissed the Mohrs’ Amended Complaint in violation of
Toledo II and failed to follow Behrendt, supra. Affirming those decisions was reversible error.

App. 75
On summary judgment motions, trial and appellate
courts are not to decide credibility issues. Anderson,
supra. & His and Her Corp., supra. That is exactly
what happened here by the judges rejecting Mohrs’
competent proof of their complaint and that MLB
lacked standing per the Toledo cases and Behrendt,
supra. The Panel’s cases cited on pages 3 & 5 do not
apply here for all of the foregoing reasons.
CONCLUSION
The Panel and trial court clearly erred therefore
this Petition should be granted for rehearing en banc
to correct the cited errors.
DATED: Honolulu, Hawaii, this 15th day of
July, 2021.
/s/ R. Steven Geshell
R. STEVEN GESHELL
Attorney for Plaintiffs-Appellants
SANFORD A. MOHR and TINA A.
MOHR, Individually and as CoTrustees of their October 15, 1996
unrecorded Revocable Trust

[Certificate Of Compliance Omitted]

